                UNITED STATES DEPARTMENT OF EDUCATION
                           OFFICE OF THE INSPECTOR GENERAL




June 21, 2004

INSPECTION MEMORANDUM

To:             Phillip Maestri, Director
                Management Improvement Team

From:           Cathy H. Lewis
                Assistant Inspector General
                Evaluation, Inspection and Management Services

Subject:        Review of MIT ACTION Item # 82 (ED/OIG I13D0023)

This memorandum provides the results of our inspection of one Action Plan item from
the Department of Education’s (Department’s) Blueprint for Management Excellence.
The EIMS group is examining several Action Plan items related to Human Capital. Our
objective is two-fold: 1) were the items completed as described; and, 2) as completed,
does the action taken help the Department towards its stated Blueprint objective (improve
the strategic management of the Department’s human capital). In this report, we
examined item #82 (completed on 7/30/02), which calls for the creation of a national
recruitment network.

Background:

The action required by item #82 was to:

        “Create a national recruitment network with key university programs,
        especially graduate programs in public affairs, public administration,
        financial management and information technology.”

        The comments field on this item states, “Completed 7/30/02.”

From June through December 2001, the Department (ED) analyzed its workforce and
submitted a report, entitled the “Department of Education Workforce Analysis,” to the
Office of Management and Budget (OMB). Based on this information, the Office of
Management (OM), specifically Human Resources Services (HRS), created a recruitment
network plan which emphasized attracting people in specific areas—law, program
management, technology, financial management, business management, and education
administration—over the next five years. The list of participants in this new network
would be a broad and diverse and would include colleges and universities nationwide that
OIG/Evaluations and Inspections       Inspection Report                     ED/OIG I13D0023


offer graduate programs in these areas. HRS consulted “Peterson’s,” a nationally known
guide providing information on college and university programs. Once HRS identified
the participating colleges and universities, they intended to post an electronic copy to
ConnectED, ED’s Intranet, as well as to provide a hard copy to all Executive Offices.

On June 25, 2002, HRS created what it identified as the national recruitment network list.
The Assistant Secretary for the Office of Management approved this list on July 30, 2002
per a sign-off transmittal attached to the document provided to us. This action was the
basis for the completion date identified by the Department.

Objective 1: Did OM take the actions needed to complete this item?

OM did not take the actions needed to complete this item. HRS created a list of colleges
and universities with graduate programs that correspond to the specified areas of need
identified by the Department; however, this list is merely a copy of what appears in
“Peterson’s” guide. The list does not identify a contact person at any of the institutions.
While Executive Offices may be able to use this list to identify possible sites for
recruitment, it is not a recruitment “network.”

The list prepared by HRS is not currently on ConnectED. According to HRS, the list was
there but was “inadvertently removed” during a redesign of ConnectED. There is also no
evidence that HRS disseminated the list in hard copy form to Executive Offices, but an
email with the electronic version was sent on September 30, 2003 (after OIG initiated its
evaluation). The Special Program Recruiter, a position located in HRS, is the employee
responsible for maintaining and updating the recruitment list. At this time, according to
the HRS Director, HRS does not have any employee acting in this role and is not “taking
action to fill” it.

Objective 2: As completed, does the action taken help the Department towards its
stated Blueprint objective (improvement of the strategic management of the
Department’s human capital)?

As completed, the action taken does not help the Department towards its stated Blueprint
objective. The Department intended the national recruitment network to be a useful tool
in recruiting highly qualified candidates in specific areas. The list created does not
identify a “recruitment network,” and does not serve as a useful recruitment tool.

Recommendations:

In order for action item #82 to be “completed,” we recommend that the MIT address the
above issues in the following manner:

        1. Designate Action Item #82 as “open,” or designate it as “closed,” if the MIT
           has determined that the action item is no longer needed or if this action item
           will be incorporated into a new action step under the FY 2004 Blueprint.




                                             2
OIG/Evaluations and Inspections       Inspection Report                   ED/OIG I13D0023


        2. Require OM to establish contacts at each institution listed on the National
           Recruitment List.
        3. Require that OM fill the Special Program Recruiter position on a temporary
           basis, with an individual to oversee the network, keep the list current, and
           gather data about usage of the recruitment network in hiring new employees.
           A decision on a permanent hire should be made following the completion of
           the competitive sourcing process for HR Services.

We provided the Department with a copy of our draft inspection report. They provided a
response to each or our recommendations. We have withdrawn two recommendations,
that OM release the recruitment network list to all Executive Offices in hard copy and
that OM publish the recruitment network list on ConnectED. We have withdrawn the
former because since we conducted our inspection OM has decided that they want to rely
upon electronic transmission of the list only. This is contrary to their initial plan, but
satisfies our interest, which was effective communication with the Executive Officers.
With respect to the second withdrawn recommendation, following our inspection, the
Department took the action requested. We have modified two of our recommendations,
numbers one and three, to offer the Department additional flexibility in their response.
We have inserted the Department’s comments following each of our remaining
recommendations. In addition to responding to the recommendations, the Department
also identified some additional actions taken since the completion of the National
Recruitment Network, including what they identified as a “process for recruitment and
succession planning, the definition of mission critical occupations, and improvements to
the presidential Management Internship program.” We discussed in our inspection reports
of MIT Action Items numbers 84, 169, 171, 172, 179, and 221, our concerns with the
Department’s recruitment and succession planning efforts and the limitations on the
operation of the Presidential Management Internship Program.

A copy of the Department’s entire response is attached.

Recommendation 1: Designate Action Item #82 as “open,” or designate it as
“closed,” if the MIT has determined that the action item is no longer needed or if
this action item will be incorporated into a new action step under the FY 2004
Blueprint.

Department Comments:
The MIT did not concur with our original recommendation to designate this action item
as “open,” stating that HRS completed the product needed. A “network of people,” would
have been “too ambitious,” and because managers in the Department do “very little
college level recruitment,” the product was completed “at a level of effort consistent with
the expected benefit.” According to the MIT, the recruitment network is available to
managers to help them identify specific institutions and programs.

OIG Response:
The action item identified by the MIT was to “create a national recruitment network” to
facilitate the Department’s hiring efforts in particular areas, including public affairs,



                                             3
OIG/Evaluations and Inspections      Inspection Report                    ED/OIG I13D0023


public administration, financial management and information technology. What OM
“completed” in July 2002 was a list of schools and universities, not a network that
managers could reasonably expect to call upon to assist them in recruiting new staff.
There was no provision for communication between the Department and the schools in
question or a means by which to exchange information about job openings or skill needs;
all features that managers could have expected as part of a functioning network.
Similarly, at the time of our inspection, the network was not readily accessible to
Department staff. To get to the National Recruitment Network information on line, a user
needs to click five times from the main ConnectED page, six times to get to the list. In a
short survey of 13 managers throughout the Department, only two could identify what the
National Recruitment Network was, where it was located or had ever attempted to use it.
A National Recruitment Network, as identified by the Culture of Accountability, would
be a useful recruitment tool for Department managers. We have modified our
recommendation to include the option of closing this action item if the MIT believes that
such a network is no longer needed or that this action will be incorporated into a new
action step in the FY 2004 Blueprint.

Recommendation 2: Require OM to establish contacts at each institution listed on
the National Recruitment List

Department Comments:
The MIT did not concur, stating that phone numbers and web links are listed for each of
the institutions on the list. The MIT rejected the need for more specific contact
information, stating that such contacts could quickly become outdated.

OIG Response:
Our office randomly selected eight schools from one of the identified program categories
(Masters of Public Administration). We attempted to make contact using the phone
numbers and web addresses provided on the Department’s list. Of the eight schools
selected, one phone number had been disconnected and five of the others we not viable
contact numbers. Five of the web addresses took us to a generic site for the school and
did not direct users to the pertinent program website. Only one of the schools contacted
realized it appeared on the Department’s National Recruitment Network. As stated above,
a network implies a group of connected individuals exchanging information. General
phone numbers and generic web links are not sufficient. To sustain a viable network,
specific contact information is necessary, as is recurring contact between the Department
and the institutions.

Recommendation 3: Require that OM fill the Special Program Recruiter position,
on a temporary basis, with an individual to oversee the network, keep the list
current and gather data about usage of the recruitment network in hiring new
employees. A decision on a permanent hire should be made following the completion
of the competitive sourcing process for HR Services.

Department Comments:




                                            4
OIG/Evaluations and Inspections        Inspection Report                    ED/OIG I13D0023


The MIT disagreed with our original recommendation, call for OM to fill this position,
noting that this position was covered by the OneED business case for HR Services and
that it would be inappropriate to fill the position until the competitive sourcing
competition was completed.

OIG Response:
We have modified our recommendation to allow for filling this position on a temporary
basis, pending the outcome of the competitive sourcing process. For the recruitment
network to function effectively, it is essential that an individual have responsibility for
making contacts at each institution, exchanging information on a recurring basis and
encouraging recruitment by the managers of students directly from the colleges and
universities.

Administrative Matters:

This inspection was performed in accordance with the President’s Council on Integrity
and Efficiency (PCIE) Quality Standards for Inspections (1993).

We appreciate the cooperation given to us during the inspection. If you have any
questions or wish to discuss the contents of this report, please call me at 202-205-8639 or
Deb Schweikert, Director, Evaluation and Inspection Division at 202-205-5569. Please
refer to the control number in all correspondence relating to this report.




                                              5
                                     January 7, 2004



To:        Cathy H. Lewis
           Assistant Inspector General
           Evaluation, Inspection and Management Services

From:      Phillip Maestri, Director
           Management Improvement Team

Subject:   Draft Inspection Memorandum (December 3, 2003)
           Review of MIT Action Item Number 82 (ED/OIG I13D0023)
           “Create a National Recruitment Network (NRN)”

Thank you for the opportunity to review and comment on a draft version of this
inspection memorandum.

Comments on Background and Findings

The draft memo describes the NRN as “merely a copy” of what appears in Peterson’s
(a searchable website with information on a wide range of educational institutions).
While Peterson’s was the source of most of the data for the NRN, OM added information;
selected institutions based on forecasted staff needs and the occupations identified in the
Blueprint; and made the information accessible to managers. “Merely a copy” is not a
good description of the NRN product.

The draft memo observes that no contact persons are listed for the institutions, but the
information necessary to achieve the objective is in the NRN. Contact information—
phone numbers and web links—is listed for each of the 900 institutions.

OIG concludes from these two points that “one cannot consider it a useful network.”
However, the NRN is available at manager’s desks through the Internet. It is formatted
in Microsoft Excel and fully searchable. The spreadsheet is organized with tabs for each
academic area and one for diversity resources. Users can further sort and organize the
information. We think these characteristics make it useful and customized to meet ED
managers’ needs.

The investigation concludes that “since the list alone cannot be considered a network” the
NRN product “fails to meet any objective.” We recognize that the Blueprint action was
broadly worded: “Create a national recruitment network with key university programs,
especially graduate programs in public affairs, public administration, financial
management and information technology.” The Blueprint did not define “network.”
Taken to mean a network of people, the action would have been too ambitious. It is
useful to note that this action is one of the recommendations of the Culture of
Accountability report, which were not vetted through the offices that would implement
them before being added to the Blueprint. When it received this charge, OM needed to
develop a plan so that the effort expended in implementation was reasonable in the
context of the expected benefit. According to OM data, ED does very little college
recruitment. Management officials typically ask HRS to advertise mid-level (GS-11/12)
and senior level (GS-13/14/15) positions. In OM’s judgment, the NRN product was the
best way to make information about selected, targeted institutions and graduate programs
available for recruitment, which clearly helps the Department toward the objective of
improving strategic human capital management.

Developments since the completion of the National Recruitment Network

Process for Recruitment and Succession Planning Implemented: During 2003, OM
implemented a recruitment planning strategy. On November 12, 2003, OM completed an
analysis for each office and for the Department as a whole. These in-depth analyses of
specific positions, by occupation, include projected staff needs and tentative plans for
recruitment for each mission-critical occupation. The Department now has more detailed
and current information on recruitment needs than the 2001 Workforce Analysis
provides.

Mission Critical Occupations Defined: In November, the Executive Management Team
approved the selection of nine Mission Critical Occupations as the focus of the strategic
management of human capital.1 The selection of these occupations was based on the
recruitment plans. This list supersedes the prior list of target occupations, which was
based on the 2001 Workforce Analysis.

Improvement and Presidential Action on the PMI program: The Presidential Management
Internship program is one of the best tools available to recruit talented recent graduates.
Since the NRN was released, ED has improved its PMI program. On November 21, 2003,
President Bush issued an executive order to reinvigorate the program, creating the
Presidential Management Fellows Program (PMF). The Department’s implementation of
program improvements and the new PMF provisions will improve recruitment at the
levels targeted by the NRN.

Competitive Sourcing Decision Pending: Human Resource Functions, including the role
of the recruitment specialist, were the subject of an A-76 competition. OM has
discontinued hiring for all non-essential staff pending the award of the contract and
associated re-engineering.

ConnectED redesign: OIG found that the NRN was not accessible on ConnectED at the
time of the investigation. When ED redesigned ConnectED, the link was inadvertently
omitted. The link was on ConnectED at the time of the release of the NRN, and can
again be accessed at: http://connected/doc_img/recruitmentlist.xls

1
 The mission critical occupations are: Education Program Specialist/Education Research Analyst,
Loan Analyst/Institutional Review Specialist/Case Management Specialist, Vocational Rehabilitation
Specialist, Equal Opportunity Specialist, Attorney, Management Analyst, Financial Management
Specialist/Audit Resolution Specialist/Accountant/Auditor, Criminal Investigator, and IT Specialist.


                                                 7
Response to recommendations

Recommendation 1: Reopen action #82. The MIT does not concur. HRS completed a
product that was designed to meet the identified need, at a level of effort consistent with
the expected benefit. The need is now addressed through Recruitment Planning. The
NRN continues to be available to managers to identify specific institutions and programs
to contact for recruitment of recent graduates.

Recommendation 2: Establish contacts (names) at each institution. OM does not concur.
Phone numbers and web links are listed for each of the 900 institutions. Contact persons
are likely to change frequently. The phone numbers and links will allow users to find the
most up-to-date contact information.

Recommendation 3: Require HRS to fill the Special Program Recruiter position. OM
does not concur. Hiring is one of the ED business activities undergoing competitive
sourcing. The competitive sourcing performance decision is still pending. Until the
decision is made, management’s judgment is that the position should not be filled. No
permanent HRS positions affected by the competition have been filled since the
competition began. To fill the position at this time could ultimately add to the employee
placement problem if the employee proposal is not successful.

Recommendation 4: Release the NRN list in hard copy. OM does not concur. This
recommendation is inconsistent with ED’s efforts to improve the use of technology in all
business processes. HRS sent electronic copies, which are more useful because they are
easily stored, searched, and sorted.

Recommendation 5: Publish the NRN list on ConnectED. This recommendation has
been implemented. The link is on ConnectED.




                                             8
